App. 1
IN THE SUPREME COURT OF
THE STATE OF IDAHO
Docket No. 45499
STEVEN L. PICATTI,

)
Plaintiff-Appellant, )
)
v.
)
)
AARON MINER and
DENNIS LAURENCE, )
)
Defendants)
Respondents,
)
)
and
)
MARK WILLIAMSON, )
RANDALL GOOD)
SPEED, and JOHN
)
DOES 1-5,
)
Defendants.
)

Boise, January 2019
Term
Opinion Filed:
September 10, 2019
Karel A. Lehrman,
Clerk
SUBSTITUTE OPINION.
THE OPINION
PREVIOUSLY
RELEASED ON JUNE
7, 2019 IS HEREBY
WITHDRAWN.

Appeal from the District Court of the Fourth
Judicial District of the State of Idaho, Ada
County. Jason D. Scott, District Judge.
The district court’s order granting summary
judgment is affirmed in part and vacated in part.
Johnson & Monteleone, LLP, Boise, for appellant. Bruce S. Bistline argued.
Jan M. Bennetts, Ada County Prosecuting Attorney, Boise, for respondent. Erica White argued.
-----------------------------------------------------------------------

App. 2
BRODY, Justice.
This appeal arises from the district court’s decision to bar Steven Picatti’s 42 U.S.C. section 1983
claims against two deputies on the basis of collateral
estoppel. On July 12, 2014, Picatti struggled to drive
home because road access was blocked for the Eagle
Fun Days parade. After circumventing some orange
barricades, Picatti drove toward two uniformed deputies who were on foot patrol by a crosswalk, which was
marked with a large sign reading: “road closed to thru
traffic.” The factual background from that point becomes heavily disputed.
Picatti alleges that Deputy Miner hit the hood of
his car, then pulled Picatti out of his truck to tase and
arrest him. The deputies contend that Picatti
“bumped” Deputy Miner with his truck and then resisted arrest, forcing them to tase him into submission.
Picatti was ultimately arrested on two charges: resisting and obstructing officers (I.C. § 18-705), and aggravated battery on law enforcement (I.C. § 18-915(3)). At
the conclusion of the preliminary hearing, Picatti was
bound over. Prior to trial, Picatti accepted a plea agreement in which he pleaded guilty to disturbing the
peace (I.C. § 18-6409) for “failing to obey a traffic sign
and driving into a restricted pedestrian area.” The
court entered a judgment of conviction, which has not
been appealed, overturned, or expunged.
Two years later, Picatti brought a 42 U.S.C. section
1983 suit against his arresting deputies, claiming deprivations of his protected rights to be free from (1)

App. 3
unreasonable seizure, (2) excessive force, and (3) felony
arrest without probable cause. The district court
granted summary judgment to the defending deputies
holding that collateral estoppel barred Picatti from relitigating probable cause once it was determined at the
preliminary hearing. Picatti timely appealed. We affirm the order granting summary judgment to the deputies as to Picatti’s claims of false arrest and
unreasonable seizure; however, we vacate the summary judgment as to Picatti’s excessive force claim.
The district court correctly applied the doctrine of collateral estoppel to Picatti’s claims of false arrest and
unreasonable seizure, but not as to excessive force. In
addition, we cannot find as a matter of law that the
deputies are entitled to qualified immunity on Picatti’s
excessive force claim when there is a genuine issue of
material fact.
I.

FACTUAL AND PROCEDURAL
BACKGROUND

On the afternoon of July 12, 2014, Steven Picatti
drove west on Highway 44 through Eagle, Idaho, on his
way home. Because the community was celebrating the
Eagle Fun Days festival, a parade blocked access to
Picatti’s residence. With several access points closed,
Picatti drove his vehicle around orange barrel barricades toward a pedestrian crosswalk where two uniformed deputies were on foot patrol. The crosswalk was
blocked by a sign marked “road closed to thru traffic.”

App. 4
Picatti alleges that he approached one officer in
his vehicle to ask for directions home. Deputy Miner
then advanced towards the vehicle and slammed his
hands onto the hood. Miner was agitated and yelling
at Picatti, but Picatti could not hear Miner’s shouts
over the noisy engine. Picatti contends Miner went to
the driver’s door, opened it, and “grabbed [Picatti]
around the neck.” Picatti said he could not exit the vehicle because his seatbelt was on, and he was afraid to
remove his hands from the steering wheel. He repeated
the words “seat belt” to Miner several times. Miner
then reached across Picatti to unlatch the seatbelt.
Miner and another officer, Deputy Laurence, then
pulled Picatti out of the vehicle, and pushed Picatti to
the ground in an effort to arrest him. Picatti said he
struggled simply to get off the hot pavement and
claims he could not breathe as the deputies pushed
him against the ground. He also claims that the deputies never gave him any instructions, commands, or explanations as they wrestled him from his truck to the
ground. After multiple attempts to push himself off the
ground, Picatti was tased in the back and handcuffed.
Miner, however, alleges that Picatti did not slow
his truck down as he came around the barricades, nor
did it appear that he would stop the vehicle. Laurence
even began unholstering his gun out of concern Picatti
would not stop the truck. Miner pushed through some
pedestrians to place himself in front of the crosswalk,
and ordered Picatti to stop the vehicle. The truck
slowed down but physically pushed Miner back into
the crosswalk before stopping. Miner claimed that

App. 5
Picatti looked frustrated and gestured at him with his
hands. Miner slammed his hand on the hood of Picatti’s
truck. The truck then “jerked” forward and hit Miner a
second time. Miner walked over to the driver’s door,
opened it, and ordered Picatti to exit the vehicle. Picatti refused. Miner released Picatti’s seatbelt, then he
and Laurence pulled Picatti out of the truck. As the
three men struggled against one another, Picatti and
the deputies went to the ground.
Officer Goodspeed also came to assist in subduing
and arresting Picatti. Goodspeed noted that Picatti
was “very fit” despite being seventy years old, and
struggled against the officers as they tried to handcuff
him. Miner contends that Picatti refused to put his
hands behind his back, and instead continually tried
to get up. During the struggle, Laurence also felt someone tugging on his gun and yelled out, “get your hands
off my gun.” Once Laurence could see his weapon, he
saw that Picatti’s hand had become trapped between
Laurence’s gun and holster; Picatti’s “wild” arm movements tugged at the holster even though he did not
reach for the weapon. Upon hearing Laurence’s shout,
however, Miner tased Picatti to quickly quell the struggle. Both Laurence and Goodspeed were also shocked
by the taser wires. Finally subdued, the deputies handcuffed Picatti. Deputy Williamson then transported Picatti to the Ada County Jail on a misdemeanor charge
of resisting and obstructing officers (I.C. § 18-705), as
well as a felony charge for aggravated battery on law
enforcement (I.C. § 18-915(3)).

App. 6
On August 20, 2014, Picatti appeared before a
judge for a preliminary hearing. Picatti and Miner
were the only witnesses at the hearing, and both testified. Picatti’s attorney cross examined Miner at length,
and questioned Picatti as well. At the hearing’s conclusion, the court determined there was probable cause to
bind Picatti over to the district court on the felony
charge, and sufficient cause to believe he was guilty of
both charges. The magistrate court explained that Picatti’s vehicle came into contact with Miner, with Picatti knowing that Miner was a deputy.
Prior to trial, Picatti reached a plea agreement, in
which he pleaded guilty to disturbing the peace (I.C.
§ 18-6409) for “failing to obey a traffic sign and driving
into a restricted pedestrian area.” The court entered a
judgment of conviction, which has not been appealed
or overturned.
Almost two years later, Picatti filed a civil suit
against Miner and Laurence, asserting under 42 U.S.C.
section 1983 a deprivation of his protected right to be
free from (1) unreasonable seizure, (2) excessive force,
and (3) felony arrest without probable cause. While the
initial complaint asserted claims against four defendants—Miner, Laurence, Goodspeed, and Deputy Mark
Williamson—the court dismissed the claims against
Williamson and awarded summary judgment to Goodspeed. Only Miner and Laurence remain as defendants.
On July 17, 2017, the deputies filed a motion for
summary judgment, arguing in their memorandum

App. 7
that Picatti’s claims were barred by collateral estoppel
because the criminal court adjudicated and found
probable cause for his arrest. Picatti then filed a Memorandum in Opposition to Defendant’s Motion for Summary Judgment, asserting there was no probable cause
determination to his claim, nor was there full and fair
litigation on the issue of probable cause. After evaluating the parties’ claims, the district court granted the
deputies’ motion for summary judgement on the basis
of collateral estoppel—namely, that the August 20,
2014 hearing barred Picatti’s civil claim because the
earlier criminal proceedings established probable
cause for the arrest. The court explained that Picatti’s
excessive-force claim and false-arrest claim would require the court to re-litigate the existence of probable
cause. Picatti timely appealed to this Court.
II.

STANDARD OF REVIEW

Determining whether collateral estoppel bars
claims from relitigation is a question of law over which
the Court exercises free review. Rodriguez v. Dep’t of
Correction, 136 Idaho 90, 92, 29 P.3d 401, 403 (2001).
Likewise, determining whether an officer is entitled to
qualified immunity requires de novo review on appeal.
James v. City of Boise, 160 Idaho 466, 477, 376 P.3d 33,
44 (2016).

App. 8
III.

ANALYSIS

A. The district court erred in granting summary judgment to the deputies.
Picatti’s claims for false arrest and unreasonable
seizure are premised on the assertion that the deputies
did not have probable cause to seize him. The magistrate court ruled at a contested hearing that there was
probable cause to believe that Picatti was guilty of
committing the charges of aggravated battery on an officer and resisting or obstructing officers. Picatti
simply cannot relitigate probable cause for his arrest
or felony prosecution. In addition, while Picatti’s final
claim of excessive force was not decided in the prior
criminal proceedings—and, consequently, is not precluded by the doctrine of collateral estoppel—we cannot determine whether the deputies are entitled to
qualified immunity until the disputed facts are resolved below. Accordingly, collateral estoppel bars Picatti’s claims as to the claims for false arrest and
unreasonable seizure, but not his claim for excessive
force.
1.

Picatti’s claims for false arrest and unreasonable seizure are barred by the
doctrine of collateral estoppel.

Picatti argues that the preliminary hearing cannot collaterally estop his civil claims because the lower
standard of proof in a preliminary hearing should not
bar relitigation of the issue of probable cause. He also
argues that the possibility Miner lied in the

App. 9
preliminary hearing should permit a new determination on the existence of probable cause. However, Picatti’s arguments miss the mark on the collateral
estoppel inquiry—the question is whether Picatti fully
and fairly litigated the issue of probable cause before
the magistrate court, and was fully incentivized to contest probable cause because of the significance of the
preliminary hearing.
Collateral estoppel stems from the doctrine of res
judicata, and establishes a legal barrier against the relitigation of an identical issue with the same party or
its privy. Rodriguez v. Dep’t of Correction, 136 Idaho 90,
92, 29 P.3d 401, 403 (2001); Anderson v. City of Pocatello, 112 Idaho 176, 183, 731 P.2d 171, 178 (1986). This
doctrine, also known as issue preclusion, prevents a
party from resurrecting a lawsuit already put to rest;
it protects litigants from unnecessary costs and promotes judicial economy from needless and likely inconsistent adjudications. Berkshire Investments, LLC v.
Taylor, 153 Idaho 73, 81, 278 P.3d 943, 951 (2012);
Pines, Inc. v. Bossingham, 131 Idaho 714, 717, 963 P.2d
397, 400 (Ct. App. 1998).
This Court established five factors that must be
evident for collateral estoppel to bar the relitigation of
an issue determined in a prior proceeding:
(1) the party against whom the earlier decision was asserted had a full and fair opportunity to litigate the issue decided in the
earlier case; (2) the issue decided in the prior
litigation was identical to the issue presented
in the present action; (3) the issue sought to

App. 10
be precluded was actually decided in the prior
litigation; (4) there was a final judgment on
the merits in the prior litigation; and (5) the
party against whom the issue is asserted was
a party or in privity with a party to the litigation.
Rodriguez, 136 Idaho at 93, 29 P.3d at 404. Accordingly,
a prior criminal proceeding may bar a plaintiff from
relitigating the same issue in a subsequent civil action,
including suits brought under 42 U.S.C. section 1983.
See, e.g., Anderson, 112 Idaho at 176, 731 P.2d at 171.
The United States Supreme Court has continually
recognized that 42 U.S.C. section 1983 “creates a species of tort liability.” Heck v. Humphrey, 512 U.S. 477,
483 (1994). The statute specifically provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within
the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in
equity, or other proper proceeding for redress,
except that in any action brought against a judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief shall not be granted unless a declaratory
decree was violated or declaratory relief was
unavailable.

App. 11
42 U.S.C. § 1983. This provision “supplies a remedy for
the deprivation under color of state law of federally
protected rights.” James v. City of Boise, 160 Idaho 466,
473, 376 P.3d 33, 40 (2016). Thus a police officer could
be found liable for damages under 42 U.S.C. section
1983 where he infringed on the plaintiff ’s federally
protected rights, such as using unreasonable force in
effecting an arrest. See Sprague v. City of Burley, 109
Idaho 656, 664, 710 P.2d 566, 574 (1985).
Generally, civil tort actions remain inappropriate
vehicles to challenge the validity of criminal judgments—concerns for finality and consistency have invariably restricted opportunities for collateral attacks.
Heck, 512 U.S. at 484–86. In Heck v. Humphrey, the
U.S. Supreme Court explained that where a section
1983 action would render a criminal sentence or conviction invalid, a plaintiff must prove the criminal adjudication “has been reversed on direct appeal,
expunged by executive order, declared invalid by a
state tribunal authorized to make such determination,
or called into question by a federal court’s issuance of
a writ of habeas corpus, 28 U.S.C. § 2254.” 512 U.S. at
487. “A claim for damages bearing that relationship to
a conviction or sentence that has not been so invalidated is not cognizable under § 1983.” Id. at 487. Likewise, even where a section 1983 action “does not seek
damages directly attributable to conviction or confinement but whose successful prosecution would necessarily imply that the plaintiff ’s criminal conviction
was wrongful” would require the plaintiff to negate an
element of the offense for which he has been convicted.

App. 12
Id. at 487 n.6. This category would include the situation where a plaintiff resisted arrest and then brought
a section 1983 action against a police officer for a violation of his Fourth Amendment right to be free from
unreasonable seizures. Id.
The key inquiry, the Court explained, is to “consider whether a judgment in favor of the plaintiff
would necessarily imply the invalidity of his conviction
or sentence.” Id. at 487. If it would so imply, the complaint must be dismissed until the plaintiff proves the
criminal adjudication was invalidated; if it would not
imply invalidity, the civil action should proceed. Id. For
example, in the Ninth Circuit Court of Appeals’s case
Smithart v. Towery, Smithart brought a section 1983
claim against his arresting police officers, claiming
they “used force far greater than that required for his
arrest and out of proportion to the threat which he
posed to [them].” 79 F.3d 951, 952 (9th Cir. 1996). “Because a successful section 1983 action for excessive
force would not necessarily imply the invalidity of
Smithart’s arrest or conviction,” his claim against the
officers was not precluded by Heck even though he
failed to show a reversal, expungement, or other invalidation of his prior conviction. Id. at 952–53.
Two Idaho cases demonstrate how a preliminary
hearing affects the collateral estoppel factors in a 42
U.S.C. section 1983 claim. First, in State v. Gusman,
police arrested a driver for driving under the influence,
among other charges. 125 Idaho 805, 806, 874 P.2d
1112, 1113 (1994). At the time of Gusman’s arrest, the
officer on the scene believed that the driver and

App. 13
passenger had switched seats, with Gusman ending up
as the passenger. Id. Believing Gusman to be the real
driver, the officer asked Gusman to take a blood alcohol
evidentiary test, which she refused. Id. He then seized
her license. Id. At the license suspension hearing (BAC
hearing), Gusman—the only witness—showed the
court evidence she was not operating the vehicle on the
night in question, and the court determined there was
no evidence the officer had reasonable grounds or probable cause to believe she was the driver. Id. Gusman
then raised this BAC-hearing finding during her DUI
criminal prosecution as a basis to dismiss the charges,
but the court declined to apply collateral estoppel. Id.
at 807. As a result, Gusman pleaded guilty to both driving under the influence and obstructing an officer to
drop the remaining charges against her, and then appealed. Id. This Court ultimately affirmed the district
court’s decision to not apply collateral estoppel. Id.
This Court explained in Gusman that the BAC
hearing was litigated to a final judgment, but the State
did not have a full and fair opportunity to litigate because it had no incentive to vigorously litigate the license suspension. Id. at 808. Such a hearing, this Court
explained, was just a minor civil matter pursued by the
driver, who had the burden to show why she did not
submit to an evidentiary test. Id. Allowing collateral
estoppel to apply would have turned the BAC hearing
into a criminal matter, and forced the state to aggressively litigate future BAC hearings to prevent issue
preclusion in subsequent criminal prosecutions. Id. at
808–09. In addition, this Court held that the issues

App. 14
were not identical: “the only issues decided at the BAC
hearing and the only issue entitled to preclusive effect
is that the officer did not have probable cause to request Gusman to submit to the evidentiary test.” Id. at
809. Because that issue was not present in the DUI
prosecution, the ultimate issues of fact were not identical, nor were they barred by collateral estoppel. Id.
Second, in Anderson v. City of Pocatello, a plaintiff
was acquitted of aggravated assault upon police officers, but criminally convicted of “intentionally, without
malice” aiming a firearm at others. 112 Idaho 176, 179,
731 P.2d 171, 174 (1986). The police had been investigating the vandalism of an apartment when Anderson
emerged from his neighboring apartment with a
loaded shotgun. Id. The remaining facts were widely
disputed. Id. Anderson alleged that he never aimed a
gun at anyone—and in fact, did not know the men were
police officers—while the defendants said Anderson
pointed a gun at them after running out of his apartment, forcing them to fire their own weapons. Id. Anderson was shot three times before being arrested for
aggravated assault on officers. Id. He later brought a
42 U.S.C. section 1983 claim against the arresting officers. The district court granted summary judgment to
the officers, determining that there was no factual dispute over whether the officers acted on reasonable
grounds. Id. at 181.
This Court held that Anderson was estopped from
denying he had pointed the gun at the officers because
that fact was established by the earlier conviction. Id.
at 180. Nevertheless, this Court reversed the district

App. 15
court’s grant of summary judgment because the criminal trial did not adjudicate whether the officers acted
on reasonable grounds. Id. “Because the evidence renders conflicting inferences, a genuine issue of material
fact remains as to whether the officers acted with a
good faith belief based upon reasonable grounds that
the measures they took were necessary.” Id. (emphasis
in original). Doubts remained over whether the officers
had reasonable grounds to fire at Anderson—doubts
that had to be resolved against the moving party in
summary judgment. Id. While Anderson specifically
addressed whether collateral estoppel barred a section
1983 claim following a criminal conviction, its principle applies to collateral estoppel questions in general
because issue preclusion “works to prevent the relitigation of issues of ultimate fact.” Gusman, 125 Idaho
at 808, 874 P.2d at 1115. Indeed, the exact rule held in
Anderson stated: “collateral estoppel bars the relitigation of an issue determined in a criminal proceeding in
which the party sought to be estopped had a full and
fair opportunity to litigate that issue.” 112 Idaho at
184, 731 P.2d at 179 (emphasis added).
We also find our sister jurisdiction’s case law on
this issue persuasive. In Haupt v. Dillard, the U.S.
Ninth Circuit Court of Appeals examined whether the
finding of probable cause in the preliminary hearing
barred its relitigation in the defendant’s later section
1983 claim. 17 F.3d 285, 288–89 (9th Cir. 1994), as
amended (Apr. 15, 1994). In Haupt, the defendant had
been arrested and prosecuted for the charges of kidnapping and murdering a seven-year-old boy. Id. at

App. 16
286–87. While the preliminary hearing established
probable cause to arrest the defendant, the jury ultimately acquitted him of all charges. Id. at 287–88. The
defendant then brought a 42 U.S.C. section 1983 action
against the police detectives that arrested him, arguing the officers secured an arrest warrant with an affidavit they knew contained false statements and
omitted facts showing Haupt’s innocence. Id. at 287–
88.
The Ninth Circuit applied Nevada law, which “estopped [a litigant] from raising an issue in a subsequent proceeding if (1) the issue was actually litigated
and necessarily determined in the prior proceeding,
and (2) the parties in the two proceedings were the
same or in privity.” Id. at 288 (citations omitted). The
court held that the probable cause determination at
Haupt’s preliminary hearing was “a final, conclusive
determination of the issue” and “sufficiently conclusive
of the issue to preclude its relitigation.” Id. at 288–89.
Furthermore, while the court recognized that some defendants may not fully litigate probable cause for tactical reasons—which could, consequently, render
collateral estoppel inappropriate—Haupt “vigorously
fought the probable cause issue” by pointing out deficiencies in the affidavit and seeking a writ of habeas
corpus to overturn the probable cause determination.
Id. at 289–90. Thus, the court concluded, Haupt could
not relitigate the issue of probable cause, and the defendant detectives were immune from suit on charges
they violated Haupt’s Fourth Amendment right
against unreasonable search and seizure. Id. at 290.

App. 17
Read together, Anderson, Gusman, and Haupt
demonstrate that courts should focus on what ultimate
issues the prior criminal proceeding established, and
whether the proceeding was of such significance to incentivize the parties to fully and fairly litigate the issue. See Anderson, 112 Idaho at 184–85, 731 P.2d at
179–80; Gusman, 125 Idaho at 808–09, 874 P.2d at
1115–16. However, the decision to bind a defendant
over for criminal prosecution does not, on its own, invoke collateral estoppel to bar the relitigation of probable cause in a subsequent section 1983 claim. Haupt,
17 F.3d at 289–90. Courts must apply a fact intensive
inquiry to determine the ultimate issues established
by the prior criminal proceeding and whether the proceeding was of such significance to incentivize the parties to fully and fairly litigate the issue. See Anderson,
112 Idaho at 184–85, 731 P.2d at 179–80; Gusman, 125
Idaho at 808–09, 874 P.2d at 1115–16. For example, in
Gusman the record showed that the state did not have
a full and fair opportunity to litigate because it lacked
the incentive to litigate the license suspension. 125
Idaho at 808, 874 P.2d at 1115. Whereas in Haupt, the
defendant’s vigorous attempts to undermine the state’s
probable cause showing at the preliminary hearing
established a full and fair opportunity to litigate the
issue. 17 F.3d 285, 289–90. Accordingly, when determining whether collateral estoppel prevents relitigation of an issue determined in a criminal adjudication,
Idaho courts must analyze “what the prior judgment
decided and the import on the instant civil action of
that which was decided at the criminal trial.”

App. 18
Anderson, 112 Idaho at 185, 731 P.2d at 180 (emphasis
omitted).
Therefore, in this case we must look to the collateral estoppel factors and the facts on record to determine whether the preliminary hearing was a final
judgment on the merits that provided Picatti with a
full and fair opportunity to litigate probable cause.
A “final judgment includes any prior adjudication
of an issue in another action that is determined to be
sufficiently firm to be accorded conclusive effect.” Rodriguez v. Dep’t of Correction, 136 Idaho 90, 94, 29 P.3d
401, 405 (2001) (citation omitted). Tentative decisions
will not create a preclusive effect, but a decision can be
final for purposes of collateral estoppel where the parties were fully heard, the court supported its decision
with a reasoned opinion, and the decision was subject
to appeal. Id.
A probable cause finding in the preliminary hearing to bind a defendant over for trial can be a final
judgment on the merits for collateral estoppel purposes. It is a decision where the magistrate examines
evidence “to determine whether or not a public offense
has been committed and whether or not there is probable or sufficient cause to believe that the defendant
committed such public offense.” I.C. § 19-804; see also
State v. Stewart, 149 Idaho 383, 387, 234 P.3d 707, 711
(2010) (“The purpose of the preliminary hearing is to
determine whether there is probable cause to believe
that the defendant committed a felony.”). When a magistrate court finds probable cause, its determination

App. 19
binds the defendant over for trial—this is a firm, conclusive effect that permits the criminal proceeding to
move forward. The method to challenge this determination is found in Idaho Code section 19-815A, which
provides:
A defendant once held to answer to a criminal
charge under this chapter may challenge the
sufficiency of evidence educed at the preliminary examination by a motion to dismiss the
commitment, signed by the magistrate, or the
information filed by the prosecuting attorney.
Such motion to dismiss shall be heard by a
district judge.
This process provides a defendant with appellate-like
review by a district judge. Other jurisdictions also
treat such preliminary hearings as final judgments under the collateral estoppel doctrine. Autrey v. Stair, 512
F. App’x 572, 578 (6th Cir. 2013) (recognizing that a
finding of probable cause made in the preliminary
hearing of a criminal prosecution was a valid, final
judgment for collateral estoppel purposes); Haupt, 17
F.3d at 288 (holding the probable cause determination
in the preliminary hearing was “a final, conclusive determination of the issue.”); Fontana v. City of Auburn,
No. C13-0245-JCC, 2014 WL 4162528, at *7 (W.D.
Wash. Aug. 21, 2014), aff ’d in part, 679 F. App’x 613
(9th Cir. 2017) (“a probable cause determination made
at a preliminary hearing is sufficiently firm to satisfy
the requirements of the ‘final judgment’ collateral estoppel requirement.”); Lay v. Pettengill, 2011 VT 127,
¶ 24, 191 Vt. 141, 155, 38 A.3d 1139, 1148 (2011)

App. 20
(holding the preliminary hearing “was a final judgment on the issue of probable cause”); McCutchen v.
City of Montclair, 73 Cal. App. 4th 1138, 1145–46, 87
Cal. Rptr. 2d 95, 100 (1999) (“A finding of probable
cause to hold the defendant over for trial is a final judgment on the merits for the purposes of collateral estoppel.”).
Picatti had a full and fair opportunity to litigate
probable cause in his preliminary hearing. As in Anderson and Haupt, Picatti’s criminal proceedings established several facts for probable cause that he
cannot relitigate in the civil arena. Though each party
presented a different summary of events, the magistrate court noted several facts that led to a finding of
probable cause: the deputies were visible and in uniform; Picatti’s truck “bumped” Miner after approaching the crosswalk closed to through traffic; and Miner
tased Picatti after the deputies forcibly removed him
from the truck and they struggled on the pavement.
From these facts, the magistrate court reasonably determined that probable cause existed to both arrest Picatti and bind him over for prosecution on the felony
charges of aggravated battery on an officer and resisting or obstructing officers after hearing both Picatti
and Miner testify.
While Picatti contends he did not have the opportunity to fully litigate probable cause, the record
proves otherwise. Picatti vigorously argued against
probable cause by cross-examining Miner at length before the magistrate court in an attempt to challenge
Miner’s factual account and veracity before the

App. 21
magistrate. The hearing was an adversarial proceeding that incentivized each side to litigate the issue of
probable cause—the state needed to demonstrate probable cause to move forward with criminal prosecution
of the felony charge, while Picatti needed to disprove
probable cause to preserve his liberty. Upon hearing
each party’s full account, the magistrate court found
that probable cause existed for both the arrest and to
bind Picatti over to the district court for prosecution.
Accordingly, Picatti’s circumstances meet the collateral estoppel factors and Picatti cannot relitigate probable cause under his false arrest and unreasonable
seizure claims.
Picatti also contends that a California district
court has carved out exceptions to this collateral estoppel rule by allowing a plaintiff to litigate probable
cause in the subsequent civil suit where (1) new or different evidence was available to the judicial officer
than was available to the arresting officers, (2) tactical
considerations prevented the full and fair litigation of
probable cause in the preliminary hearing, or (3) where
the plaintiff alleges the arresting officer lied or fabricated evidence. See Moreno v. Baca, No. CV 00-7149
ABC (CWX), 2002 WL 338366, at *6 (C.D. Cal. Feb. 25,
2002), aff ’d and remanded, 431 F.3d 633 (9th Cir. 2005)
(affirming other issues; the U.S. Ninth Circuit Court of
Appeal did not address the preliminary hearing or collateral estoppel) (internal citations omitted).
Even if we were inclined to adopt these exceptions,
Picatti’s reliance is misplaced. His factual evidence
and testimony remain virtually identical to the

App. 22
presentation at the preliminary hearing before the
magistrate court; Picatti’s attorney cross-examined
Miner at length in the preliminary hearing to undermine a probable cause determination and diminish
Miner’s veracity; and while Picatti alleges Miner likely
lied to the court, he offers no substantial evidence to
prove this theory.
Picatti’s argument here relies primarily on tenuous authority and the premise that a reasonable juror
could have concluded Miner was lying about the events
leading up to Picatti’s arrest. Disputed facts by the parties are not equivalent to proof of misrepresentation,
and this Court does not second-guess factual determinations or veracity. It is “the province of the fact-finder
to assess the credibility of the witnesses in a state
court proceeding.” State v. Perry, 139 Idaho 520, 526, 81
P.3d 1230, 1236 (2003).
2.

Picatti’s excessive force claim is not
barred by collateral estoppel.

The district court determined Picatti could not
raise an excessive force claim against the deputies because it would simply relitigate probable cause in a different context. Essentially, because the deputies could
arrest him for aggravated battery, Picatti was not free
from the forcible removal from his truck. The district
court erred in this analysis.
The Fourth Amendment of the U.S. Constitution
protects individuals from excessive force by police officers in the course of an arrest, which allows inquiries

App. 23
to be made into whether the officers’ actions were objectively reasonable in light of the circumstances confronting them, “without regard to their underlying
intent or motivation.” Graham v. Connor, 490 U.S. 386,
397 (1989). The calculus of this inquiry, however, “must
embody allowance for the fact that police officers are
often forced to make split-second judgments—in circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is necessary
in a particular situation.” Id. at 396–97.
As shown in Smithart v. Towery, “a successful section 1983 action for excessive force would not necessarily imply the invalidity of [a plaintiff ’s] arrest or
conviction.” 79 F.3d 951, 952–53 (9th Cir. 1996). Picatti’s excessive force claim does not relitigate the
magistrate court’s finding of probable cause, nor does
it invalidate his conviction. Instead, Picatti is trying to
litigate whether the deputies acted reasonably in making the arrest, not whether they had probable cause to
seize him. This Fourth Amendment inquiry has yet to
be decided in either a criminal or civil court proceeding, so it is not barred by collateral estoppel.
3.

The trier of fact must resolve the disputed facts before the court can determine whether the deputies are entitled
to qualified immunity.

There is a genuine issue of material fact as to
whether the deputies violated Picatti’s Fourth Amendment right to be free from excessive force, which

App. 24
impedes the Court’s ability to address whether the
deputies are immune from suit under the doctrine of
qualified immunity. Both Picatti and the deputies have
presented arguments on qualified immunity that depend on their own version of the arrest. We cannot determine as a matter of law that the deputies are
entitled to qualified immunity when that determination depends on unresolved disputed facts. Therefore,
we vacate the district court’s award of summary judgment to the deputies and remand the case to the district court for the fact-finder to first resolve the
genuine issue of material facts so that the court can
answer the remaining issue of excessive force and
qualified immunity.
Despite the general proposition that excessive
force is contrary to the Fourth Amendment, qualified
immunity protects officers from the “hazy border between excessive and acceptable force.” Rosenberger v.
Kootenai Cnty. Sheriff ’s Dep’t, 140 Idaho 853, 856–57,
103 P.3d 466, 469–70 (2004) (citation omitted). It is immunity from suit rather than a defense to liability and
ensures that officers are on notice that their conduct is
unlawful before they are subjected to a lawsuit. Id.
Thus, “government officials can benefit from qualified
immunity in section 1983 suits if they followed a reasonable interpretation of the law,” with the objective
reasonableness of the action “assessed in light of the
legal rules that were clearly established at the time it
was taken.” Miller v. Idaho State Patrol, 150 Idaho 856,
864, 252 P.3d 1274, 1282 (2011) (quoting Anderson v.
Creighton, 483 U.S. 635, 639 (1987)); see also Mullenix

App. 25
v. Luna, 136 S. Ct. 305, 308 (2015). “Even law enforcement officials who ‘reasonably but mistakenly conclude
that probable cause is present’ are entitled to immunity.” Hunter v. Bryant, 502 U.S. 224, 227 (1991) (citation
omitted).
In Ashcroft v. al-Kidd, the U.S. Supreme Court established the two prong analysis required to establish
the qualified immunity shield for federal and state officials from money damages: “a plaintiff pleads facts
showing (1) that the official violated a statutory or constitutional right, and (2) that the right was ‘clearly established’ at the time of the challenged conduct.” 563
U.S. 731, 735 (2011). Courts have the discretion to decide which of the two prongs to tackle first, and this
Court begins with the second prong to adhere to the
principle of avoiding constitutional questions where
the case can be decided on other grounds. James, 160
Idaho at 473, 376 P.3d at 40.
Normally, qualified immunity is resolved long before trial—“at the earliest possible stage in litigation”—to preserve the doctrine’s status as immunity
from suit. Morales v. Fry, 873 F.3d 817, 822 (9th Cir.
2017) (quoting Hunter, 502 U.S. at 227). This early determination is usually possible because qualified immunity turns on legal determinations rather than
disputed facts. Id. In fact, qualified immunity is most
often a summary judgement vehicle. Id. at 823. However, when disputed facts remain, a bifurcation of duties becomes unavoidable: “only the jury can decide the
disputed factual issues, while only the judge can decide
whether the right was clearly established once the

App. 26
factual issues are resolved.” Id. Consequently, the trier
of fact must resolve the factual disputes before the
court can engage in the qualified immunity analysis.
See id. Indeed, this is an enduring principle of the judicial system: “The controlling distinction between the
power of the court and that of the jury is that the former is the power to determine the law and the latter
to determine the facts.” Dimick v. Schiedt, 293 U.S. 474,
486 (1935).
For example, in the Ninth Circuit case Morales v.
Fry, disputed facts about the events that occurred during the plaintiff ’s arrest barred the appellate court
from completing the qualified immunity analysis. 873
F.3d at 825–26. In that case, a woman was arrested
during the May 1, 2012 “May Day” protests in Seattle,
but the charges against Morales were dismissed as
soon as video footage of her arrest went online. Id. at
819–20. Morales filed suit against the officer under section 1983. Id. At the civil trial, the plaintiff and defendant-officer contested several facts: whether Morales
said “Okay, bitch!”, whether she punched the officer in
the chest, and whether the officer’s use of pepper spray
was intentional or accidental. Id. As the Ninth Circuit
court explained:
Nor can we determine as a matter of law that
Morales’s constitutional rights were not
clearly established. Whether Officer Fry . . .
reasonably believed that it was lawful to pull
her over the bicycle, depends on disputed
factual issues that the jury never resolved in
specific interrogatories, including whether

App. 27
Morales said “Okay, bitch!” and whether she
punched Officer Fry.
Morales, 873 F.3d at 826 n.7. As a result, the Ninth Circuit vacated the verdict as to the plaintiff ’s unlawful
arrest and excessive force claims under section 1983,
and remanded for a new trial regarding the disputed
issues of material fact. Id. at 826. Once the jury returned its verdict, the Ninth Circuit instructed, “the
ultimate determination of whether Officer Fry violated
Morales’s clearly established rights is a question reserved for the court.” Id.
While we have not dealt with qualified immunity
in this context before, this bifurcated approach is almost universally agreed upon by the federal appellate
courts. Id. at 824; also see, e.g., Willingham v. Crooke,
412 F.3d 553, 560 (4th Cir. 2005) (“to the extent that a
dispute of material fact precludes a conclusive ruling
on qualified immunity at the summary judgment
stage, the district court should submit factual questions to the jury and reserve for itself the legal question of whether the defendant is entitled to qualified
immunity on the facts found by the jury.”); Johnson v.
Breeden, 280 F.3d 1308, 1318 (11th Cir. 2002) (“the jury
itself decides the issues of historical fact that are determinative of the qualified immunity defense, but the
jury does not apply the law relating to qualified immunity to those historical facts it finds; that is the
court’s duty.”); Peterson v. City of Plymouth, 60 F.3d
469, 475 (8th Cir. 1995) (“the jury was entitled to determine what facts were known to the officers at the
time of the arrest” while the “legal conclusions were for

App. 28
the court to make.”). In contrast, the Fifth Circuit
Court of Appeals ordinarily reserves qualified immunity for the court but permits the jury to determine the
objective legal reasonableness of an officer’s conduct at
trial. McCoy v. Hernandez, 203 F.3d 371, 376 (5th Cir.
2000). We find Morales and the majority case law persuasive.
The Deputies contend that this bifurcation is unnecessary because Picatti bore the burden to present
clearly established law that the use of force was excessive. While plaintiffs bear this burden and must cite to
case law to show a clearly established right, James v.
City of Boise, 160 Idaho 466, 477, 376 P.3d 33, 44
(2016), disputed facts still require a bifurcated adjudication process that lets the jury resolve the factual issues before a court addresses the qualified immunity
analysis. See, e.g., Morales v. Fry, 873 F.3d 817 (9th Cir.
2017). The recent U.S. Supreme Court case of City of
Escondido, Cal. v. Emmons, 139 S. Ct. 500, 503 (2019),
does not alter that analysis, especially because Emmons did not contain any disputed facts on appeal.
As recently noted by the U.S. Supreme Court in
Emmons, specificity is crucial when defining a clearly
established right in Fourth Amendment excessive
force cases. 139 S. Ct. 500, 503 (2019). In Emmons, a
defendant brought a 42 U.S.C. section 1983 claim
against city police officers for the use of excessive force
during his arrest. Id. at 502. There were no disputed
facts on the record. Id. In fact, police body-camera footage documented the officers’ actions. Id. At the district
court, the officers won on summary judgment because

App. 29
the plaintiff failed to show a clearly established right
and the court found the officers “acted professionally
and respectfully in their encounter.” Id. On appeal, the
Ninth Circuit reversed and remanded for a trial, stating only “The right to be free of excessive force was
clearly established at the time of the events in question.” Id. The U.S. Supreme Court criticized the Ninth
Circuit’s overgeneralized right because federal law requires a right to be defined with specificity. Id. at 503.
The Court restated:
“Specificity is especially important in the
Fourth Amendment context, where the Court
has recognized that it is sometimes difficult
for an officer to determine how the relevant
legal doctrine, here excessive force, will apply
to the factual situation the officer confronts.
Use of excessive force is an area of the law in
which the result depends very much on the
facts of each case, and thus police officers are
entitled to qualified immunity unless existing
precedent squarely governs the specific facts
at issue.
...
[I]t does not suffice for a court simply to
state that an officer may not use unreasonable
and excessive force, deny qualified immunity,
and then remit the case for a trial on the question of reasonableness. An officer cannot be
said to have violated a clearly established
right unless the right’s contours were sufficiently definite that any reasonable official in

App. 30
the defendant’s shoes would have understood
that he was violating it.”
Id. (quoting Kisela v. Hughes, 138 S. Ct. 1148, 1152–53
(2018)). In other words, courts must look at existing
precedent to identify a case where an officer acted under similar circumstances and define the right using
the specific circumstances of the case. See id. (citing
D.C. v. Wesby, 138 S. Ct. 577, 590 (2018)). As articulated
by this Court:
The first component of this analysis is defining the relevant legal rule at stake. The Court
should not define the right too generally, as
doing so would essentially vitiate the qualified-immunity doctrine. Here, for example, it
would not be helpful to simply ask whether
police must not execute unreasonable
searches or, as Appellants suggest, whether
the police can obtain bodily fluid from a person reasonably suspected of driving under
the influence. Warrantless blood draws and
voluntary urine samples are significantly less
intrusive than warrantless forcible catheterizations. Instead, the question should reflect the
factual specifics in this case.
James v. City of Boise, 160 Idaho 466, 473–74, 376 P.3d
33, 40–41 (2016) (emphasis in original).
We cannot articulate a “clearly established” right
with specificity until the district court first determines
what facts occurred. While the Deputies point to Emmons as the basis for a rehearing, Emmons did not deal
with any disputed facts; rather, that case criticized the

App. 31
Ninth Circuit’s failure to define a right with specificity.
The Deputies are correct that a plaintiff bears the burden of showing a clearly established right to be free
from excessive force in the particular circumstances.
Nevertheless, we cannot reach that step of the qualified immunity inquiry without first resolving the disputed facts. To accept the Deputies’ argument here
requires this Court to decide what key facts occurred
to define these circumstances, a question reserved for
the jury in the bifurcated process outlined in Morales.
873 F.3d at 825–26. This Court would be forced to either make factual determinations on appeal or articulate a generalized right, neither of which we can do.
Emmons, 139 S. Ct. at 503 (2019) (“This Court has repeatedly told courts . . . not to define clearly established law at a high level of generality.”) (quoting
Kisela, 138 S. Ct. at 1152); Dimick v. Schiedt, 293 U.S.
474, 486 (1935) (“The controlling distinction between
the power of the court and that of the jury is that the
former is the power to determine the law and the latter
to determine the facts.”). Like in Morales, this Court
has “no way of divining which scenario actually happened” to Picatti, 873 F.3d at 825, and thus, the Court
is obliged to remand the case to trial. Unlike Emmons,
however, the Court remands only to resolve the disputed facts, not to deny the Deputies qualified immunity as they contend.
Generally, federal appellate courts let district
courts determine whether to employ a general verdict
form or utilize special interrogatories. See, e.g., Morales, 873 F.3d at 823; Cavanaugh v. Woods Cross City,

App. 32
718 F.3d 1244, 1256 (10th Cir. 2013). We will give district courts that same discretion. However, we stress
the importance of the factfinder’s mission to discover
the disputed facts that are crucial for a court to make
the requisite qualified immunity analysis. In the
Fourth Amendment context, specificity of the facts is
key, especially since a clearly established right must
reflect the factual specifics of the case. See White v.
Pauly, 137 S. Ct. 548, 552 (2017); Ashcroft, 563 U.S. at
742; James, 160 Idaho at 473–74, 376 P.3d at 40–41.
Nevertheless, despite the need for a jury in this
bifurcated process, the ultimate legal questions of
clearly established rights, potential violations of those
rights, and entitlement to qualified immunity must remain in the court’s sphere as legal conclusions. See,
e.g., Morales, 873 F.3d at 822–23, 825–26. Cases in multiple circuits of the U.S. Courts of Appeals provide good
examples of how a court can use specific interrogatories with the jury to unravel the factual disputes. For
instance, in Curley v. Klem, a jury trial determined
facts on remand after the district court had originally
failed to recognize factual disputes in its qualified immunity analysis. 499 F.3d 199, 203–04 (3d Cir. 2007).
The Third Circuit recounted:
In answer to the special interrogatories, the
jury found that, when Klem approached the
Camry, Bailey’s body was on the front seat of
the car, not on the floorboards, and that Klem
did not look into the window of the car. Furthermore, the jury found that Bailey’s body
should have been visible to someone standing

App. 33
in Klem’s position but that Klem had not
made an objectively reasonable effort to look
into the Camry. The jury also found that it was
objectively reasonable for Klem to believe that
the toll collector was signaling to the center of
the plaza. Additionally, the jury found that
Curley did not repeatedly point his gun at
Klem, and that, when Curley was shot, he was
not raising his gun to point it at Klem. Finally,
the jury could not reach a unanimous decision
and so did not answer whether Curley’s police
uniform was visible to someone in Klem’s position or whether it was reasonable for Klem
to believe that Curley was in civilian clothing.
Id. Likewise, the Second Circuit Court of Appeals explained that “special interrogatories in [a] case resolves the difficulty of requiring the jury to decide
‘what the facts were that the officer faced or perceived’ ” so the court can make the ultimate legal determinations. Stephenson v. Doe, 332 F.3d 68, 81 (2d
Cir. 2003). Or, as articulated by the Eleventh Circuit
Court of Appeals:
Qualified immunity is a legal issue to be decided by the court, and the jury interrogatories should not even mention the term.
Instead, the jury interrogatories should be restricted to the who-what-when-where-why
type of historical fact issues.
Johnson v. Breeden, 280 F.3d 1308, 1318 (11th Cir.
2002). In addition, we remind the district courts that
for the purposes of qualified immunity, a court must
resolve all factual disputes in favor of the party

App. 34
asserting the injury. Ellins v. City of Sierra Madre, 710
F.3d 1049, 1064 (9th Cir. 2013).
Like in those federal cases, Picatti and the deputies dispute key facts surrounding the circumstances
of Picatti’s arrest that prevent us from determining
whether there was a clearly established right to be free
from excessive force in these circumstances. The qualified immunity doctrine requires a right to be particularized to the facts of the case at hand and not defined
“at a high level of generality.” White, 137 S. Ct. at 552
(quoting Ashcroft, 563 U.S. at 742). Because we must
define a right with such specificity, we cannot meaningfully characterize the right at issue without a factfinder first resolving disputed facts. As an appellate
court “it is not our role on appeal to retry the case, to
weigh the evidence as a trier of the facts or to determine the facts in the case.” Jensen v. Siemsen, 118
Idaho 1, 6, 794 P.2d 271, 276 (1990).
We will not adopt the role of the trier of fact to resolve these genuine issues of material fact. Instead, we
leave these factual questions to the jury to resolve on
remand, including, but not limited to, whether Picatti
resisted arrest or was simply pushing himself off the
pavement, if Miner heard Laurence say “get your hand
off my gun,” whether Miner asked Picatti to exit the
vehicle or immediately grabbed Picatti by the neck to
pull him out, and so on. All of these facts contribute to
the “totality of the circumstances” and must be established so the court can understand the exact circumstances the deputies faced and whether their conduct
violated the Fourth Amendment. See White, 137 S. Ct.

App. 35
at 552; Ashcroft, 563 U.S. at 736; James, 160 Idaho at
473–74, 376 P.3d at 40–41. Once the jury returns its
verdict on those historical facts – establishing the whowhat-where-when-why details of the arrest – the ultimate determination of whether the deputies violated
Picatti’s clearly established right is a question reserved for the court.
B. The deputies are not entitled to attorney’s
fees on appeal.
The deputies argue they are entitled to an award
of attorney’s fees because Picatti frivolously raised this
appeal. Under 42 U.S.C. section 1988(b), the court “may
allow the prevailing party, other than the United
States, a reasonable attorney’s fee as part of the costs,”
in any action or proceeding under 42 U.S.C. section
1983. The deputies, however, did not prevail on all issues and Picatti’s claim was well grounded in fact and
law, as demonstrated by the district court’s improper
determination that his claim of excessive force was
barred by the doctrine of collateral estoppel. As such,
we decline to award attorney’s fees.
IV. CONCLUSION
In light of the foregoing, we vacate that portion of
the judgment of the district court relative to excessive
force and qualified immunity. We affirm the judgment
as to Picatti’s claims of false arrest and unreasonable
seizure. We remand for further proceedings consistent

App. 36
with this opinion. We decline to award attorney’s fees
or costs.
Justices BEVAN, STEGNER and MOELLER
CONCUR.
BURDICK, C.J., specially concurring.
I write to make sure our decision is not misinterpreted in 99.9 percent of the preliminary hearings that
take place.
Because of the very limited nature of the legal
standard found in I.R.C.P. 5. 1, I view this case as a one
off.
In these types of cases we put a citizen in an untenable position – waive or minimally participate in
the preliminary hearing and increase jeopardy in the
criminal case or try to vindicate your rights by a stout
defense in the criminal case and weaken or obliterate
your cause of action in a civil proceeding.
If the argument is a person can game both the civil
and/or the criminal system, the concept of judicial estoppel can enforce the truth telling work of the criminal and civil judicial system without the citizen’s
rights being weakened in both.
Again a waiver of a preliminary hearing cannot
support this concept of collateral estoppel nor can the
perfunctory recitation of the elements of the charged
crime with defense counsel doing their job of probing
for weaknesses in the State’s case.

App. 37
Although I am very reticent to join the majority,
Justice Brody’s careful analysis wins my cautious support. However, I implore trial judges and trial lawyers
to be sensitive in these choices.

App. 38
IN THE DISTRICT COURT OF THE FOURTH
JUDICIAL DISTRICT OF THE STATE OF IDAHO,
IN AND FOR THE COUNTY OF ADA
STEVEN L. PICATTI,
Plaintiff,
vs.

Case No.
CV-PI-2016-10624
MEMORANDUM
DECISION AND
ORDER GRANTING
SUMMARY JUDGMENT

AARON MINER,
DENNIS LAURENCE,
MARK WILLIAMSON,
RANDALL GOODSPEED, (Filed Sep. 5, 2017)
JOHN DOES 1-5,
Defendants.

Plaintiff Steven L. Picatti says he was needlessly
roughed up and unlawfully arrested by law-enforcement officers in connection with a traffic stop. On that
basis, he asserts claims under 42 U.S.C. § 1983 against
the involved officers. Two of them—Defendants Aaron
Miner and Dennis Laurence, who are Ada County
Deputy Sheriffs—move for summary judgment. Their
motion was argued on August 23, 2017. During the
hearing, Picatti’s counsel was directed to submit one
piece of additional evidence he said was in his possession, and described as favorable to Picatti’s case, but
nevertheless hadn’t submitted. He complied on August
24, 2017, at which point the motion was taken under
advisement. For the reasons that follow, it is now
granted.

App. 39
I.
BACKGROUND
On July 12, 2014, the seventy-year-old Picatti was
driving to his home in Eagle, Idaho. (Second Am.
Compl. ¶ 10.) He had to take a detour to get home because of a parade occurring nearby. (Id. ¶ 11.) The only
way to access his subdivision was a street blocked by
traffic-control barrels. (Id. ¶¶ 12-13.) A sign near the
crosswalk said the street was closed to “thru traffic,”
but there was enough space for Picatti to drive around
the barricade. (Id.) Thinking his vehicle wasn’t “thru
traffic” since he had no other way to get home, Picatti
drove around the barricade. (Id. ¶ 14.) Deputy Miner
was standing nearby. (Id. ¶¶ 13, 15.)
Deputy Miner says he saw Picatti drive around
the barricade, without even slowing down until he
neared a crosswalk occupied by pedestrians. (White
Aff. filed July 17, 2017, Ex. A at 54:6-55:24.) According
to eye witness Ramiro Maldonado, however, Picatti
drove around the barricade at a safe speed. (Maldonado Aff. ¶ 7.) In any event, Deputy Miner then approached Picatti’s vehicle to stop him. (White Aff. filed
July 17, 2017, Ex. A at 96:10-13.) What happened next
is very much in dispute.
Deputy Miner’s version of events it that Picatti
“pushe[d] him with his car a little bit” and then
stopped. (White Aff. filed July 17, 2017, Ex. A at 52:24.) Deputy Miner then slammed his hands on the hood
of Picatti’s vehicle, Picatti responded by gesturing with
his hands, and then his vehicle jerked forward, hitting

App. 40
Deputy Miner “a little harder” than the first time.
(White Aff. filed July 17, 2017, Ex. A at 58:4-60:3.)
Deputy Laurence, by the way, says he saw Picatti’s car
lurch forward and hit Deputy Miner but didn’t see the
initial impact reported by Deputy Miner. (White Aff.
filed July 17, 2017, Ex. B at 21:7-10, 22:17-23:3.) Then
Deputy Miner ordered Picatti to exit his vehicle, but
Picatti didn’t comply, so Deputy Miner forcibly removed him from it. (White Aff. filed July 17, 2017, Ex.
A at 62:12-67:16.)
Picatti, by contrast, is unsure whether he actually
hit Deputy Miner with his vehicle, but neither felt
nor heard any contact. (White Aff. filed July 17, 2017,
Ex. C at 97:14-22 (“I couldn’t tell you if [the vehicle] hit
[Deputy Miner] or not.”), 103:13-21.) Picatti says he
knew Deputy Miner was yelling at him, but he couldn’t
understand what Deputy Miner was saying, so he
simply put his hands in plain sight on the steering
wheel. (White Aff. filed July 17, 2017, Ex. C at 104:1322.) Deputy Miner then opened the driver’s door,
grabbed him by the neck, and tried to remove him from
the vehicle, but his seatbelt was fastened. (White Aff.
filed July 17, 2017, Ex. C at 104:23-105:3.) So Deputy
Miner climbed into the vehicle, unfastened Picatti’s
seatbelt, and both men then fell to the ground. (White
Aff. filed July 17, 2017, Ex. C at 105:4-16.) The ground
was extremely hot, so Picatti tried to stand up, but
other officers joined in and began trying to force him
back to the ground. (White Aff. filed July 17, 2017, Ex.
A at 105:17-106:25.)

App. 41
Picatti says he was passive while the officers tried
to force him to the ground, though he tried to put his
hands under his face since the ground was extremely
hot and he couldn’t breathe. (White Aff. filed July 17,
2017, Ex. C at 106:21-25.) Deputy Miner says Picatti
wasn’t passive and didn’t fall out of the vehicle, instead
describing the altercation as a “standing wrestling
match,” with Deputy Laurence and Defendant Randall
Goodspeed, a Meridian police officer, helping him force
Picatti to the ground. (White Aff. filed July 17, 2017,
Ex. A at 67:24-69:5, 72:15-25.) Deputy Laurence’s account is similar, describing Picatti as “yelling, combative, screaming, arms flailing,” despite continued
commands to stop resisting. (White Aff. filed July 17,
2017, Ex. B at 21:10-17.) Officer Goodspeed also says
Picatti was moving, not sitting still. (Bistline Aff. filed
Aug. 8, 2017, Ex. B-A at 28:6-17.)
Deputy Laurence says he felt tugging on his gun
once they reached the ground, so he yelled something
like “oh, my gun,” causing Deputy Miner to deploy his
taser. (White Aff. filed July 17, 2017, Ex. B at 21:17-25.)
Picatti says he felt three shocks (White Aff. filed July
17, 2017, Ex. C at 135:18-22), but Deputy Miner says
he only tased Picatti once, with a shock duration of
about five seconds. (White Aff. filed July 17, 2017, Ex.
A at 81:18-25.) Forensic evidence substantiates Deputy
Miner’s account. (Rowe Aff. ¶¶ 2-3 & Ex. A.) Picatti was
placed in handcuffs shortly after he was tased. (White
Aff. filed July 17, 2017, Ex. A at 81:7-13.)
Picatti then was driven to the Ada County Jail by
Defendant Mark Williamson, an Ada County Deputy

App. 42
Sheriff, and was booked on a misdemeanor charge of
resisting and obstructing officers and on a felony
charge of aggravated battery on an officer. (Second Am.
Compl. ¶ 24; Holmes Aff. filed July 17, 2017, Ex. A.) Because of the felony charge, Picatti couldn’t obtain his
release on bond until after he was arraigned, which did
not occur until the following Monday afternoon, two
days after his arrest. (Second Am. Compl . ¶ 28.)
On August 20, 2014, a magistrate judge found
probable cause to bind Picatti over to district court
on the felony charge. (Holmes Aff. filed July 17, 2017,
Ex. B.) That finding was made at the conclusion of a
preliminary hearing held under I.C.R. 5.1.1 (White Aff.
filed July 17, 2017, Ex. D.) The two original charges
1

A partial transcript of the preliminary hearing is Exhibit D
to the affidavit of the Deputies’ counsel, Erica White, filed on July
17, 2017. The hearing’s last few moments, including the magistrate’s ruling, weren’t transcribed. The omission appears to have
resulted from some sort of administrative failure to supply the
entire audio recording of the preliminary hearing to the court reporter, not from a desire on the part of the Deputies’ counsel for
only a partial transcript. When Picatti’s counsel professed during
the summary-judgment hearing to have an audio recording of the
untranscribed portion of the preliminary hearing, and asserted it
evidenced a defect in the magistrate’s probable-cause finding, the
Court directed him either to submit a CD containing that recording or to have the recording transcribed and submit a transcript.
Picatti’s counsel submitted a CD on August 24, 2017. Incidentally,
the partial transcript misidentifies the presiding magistrate as
Judge James Cawthon, when in fact the presiding magistrate was
Judge Daniel Steckel, as the Court could readily discern by listening to the CD (the Court is familiar with Judge Steckel’s voice).
Judge Steckel’s signature appears to be the one affixed to the commitment binding Picatti over to district court. (Holmes Aff. filed
July 17, 2017, Ex. B.)

App. 43
ultimately were dismissed, however, in return for
Picatti’s guilty plea to an amended charge of misdemeanor disturbing the peace. (Second Am. Compl.
¶¶ 32-33; Holmes Aff. filed July 17, 2017, Exs. D-F.)
On June 9, 2016, Picatti sued Deputy Miner, Deputy Laurence, Deputy Williamson, and Officer Goodspeed, asserting three claims arising under 42 U.S.C.
§ 1983, denominated in his complaint as follows: (1) a
claim for deprivation of the right to be free from unlawful seizure; (2) a claim for deprivation of the right
to be free from use of excessive force; and (3) a claim
for deprivation of the right to be free from felony arrest
without probable cause. (Compl. 7-10.) This action’s
scope has been narrowed twice since then. First, on October 7, 2016, the claims against Deputy Williamson
were dismissed under I.R.C.P. 12(b)(6). Although Picatti was given leave to amend his complaint to try to
cure the deficiencies in the pleading of his claims
against Deputy Williamson, he never attempted a cure
(though he did make technical amendments to his complaint in an amended complaint filed on October 25,
2016). The scope of this action narrowed again during
December 2016, when Picatti acceded to summary
judgment in Officer Goodspeed’s favor. Deputy Miner
and Deputy Laurence, who are referenced throughout
the balance of this decision as “the Deputies,” are the
only remaining defendants.
Picatti filed a second amended complaint on August 24, 2017. The sole amendment was the inclusion
of a request for punitive damages. Picatti obtained the
Court’s permission for that amendment on August 9,

App. 44
2017. He missed the deadline the Court set for its filing, but the late filing is harmless. Consequently, the
Court considers the second amended complaint to be
Picatti’s operative pleading. Moreover, the Court considers the claims asserted in it to have been challenged
in the Deputies’ motion for summary judgment, which
was filed on July 17, 2017, and therefore was already
pending when the second amended complaint was
filed.
As already noted, that motion was argued on August 23, 2017, and taken under advisement the following day. Argued at the same time was the Deputies’
motion for judicial notice of the fact that Picatti was
bound over to district court in the underlying criminal
case. That motion is denied. The Court need not take
judicial notice of that fact. It is established anyway by
the records the parties have submitted from the underlying criminal case, judicial notice of which is taken.
The motion for summary judgment is now ready for decision.
II.
LEGAL STANDARD
Summary judgment is proper “if the movant shows
that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” I.R.C.P. 56(a). To obtain summary judgment
against a claim or defense of the nonmovant, the movant must show that the evidence doesn’t support an
element of the challenged claim or defense. E.g.,

App. 45
Holdaway v. Broulim’s Supermarket, 158 Idaho 606,
611, 349 P.3d 1197, 1202 (2015). That can be done by
offering evidence disproving that element, by demonstrating that the nonmovant is unable to offer evidence
proving that element, or in both of those ways. Id.; see
also I.R.C.P. 56(c)(1). The movant then is entitled to
summary judgment unless the nonmovant “respond[s]
. . . with specific facts showing there is a genuine issue
for trial.” Wright v. Ada Cty., 160 Idaho 491, 495, 376
P.3d 58, 62 (2016). By contrast, “[a] mere scintilla of
evidence or only slight doubt as to the facts is not sufficient” to avoid summary judgment. Id. In deciding
whether to grant summary judgment, the trial court
must construe the record in the light most favorable to
the nonmovant, drawing all reasonable inferences in
the nonmovant’s favor. Id.
III.
ANALYSIS
A.

False-arrest claims

Picatti’s first claim is denominated in his complaint as one under section 1983 for unlawful seizure.
(Second Am. Compl. 8.) His third claim is denominated
in his complaint as one under section 1983 for false
arrest on a felony charge. (Second Am. Compl. 11.) The
intended scope of these claims is clarified in his opposition to the Deputies’ motion for summary judgment.
There, Picatti explains that the first claim is for false
arrest on both misdemeanor and felony charges, on the
theory that probable cause for arrest didn’t exist as to

App. 46
either the misdemeanor charge of resisting and obstructing an officer or the felony charge of aggravated
battery on an officer. (Mem. Opp’n Defs.’ Mot. Summ. J.
12.) And he explains that the third claim is simply for
false arrest on that same felony charge, on the same
theory that probable cause for arrest didn’t exist as to
it. (Mem. Opp’n Defs.’ Mot. Summ. J. 12-13, 18.)
The Deputies argue that these claims are barred
by the doctrine of collateral estoppel, also called “issue
preclusion.” This argument is based on the magistrate’s finding in the underlying criminal case, after a
preliminary hearing, that probable cause existed to
bind Picatti over to district court on the felony charge.
Picatti cannot maintain false-arrest claims, of course,
if probable cause existed for his arrest. See, e.g.,
Hutchinson v. Grant, 796 F.2d 288, 290 (9th Cir. 1986)
(“A police officer has immunity if he arrests with probable cause.”). The Deputies argue that Picatti is precluded by the doctrine of collateral estoppel from
relitigating the issue of probable cause in this action.
That doctrine bars relitigating an issue decided in
prior litigation, so long as the following five criteria are
satisfied:
(1) the party against whom the earlier decision is asserted had a full and fair opportunity
to litigate the issue decided in the earlier case;
(2) the issue decided in the prior litigation was
identical to the issue presented in the present
action; (3) the issue sought to be precluded
was actually decided in the prior litigation;
(4) there was a final judgment on the merits

App. 47
in the prior litigation; and (5) the party
against whom the issue is asserted was the
party or in privity with a party in the prior
litigation.
E.g., Pocatello Hosp., LLC v. Quail Ridge Med. Inv’r,
LLC, 157 Idaho 732, 738, 339 P.3d 1136, 1142 (2014).
Whether these criteria are satisfied in a given case is
a question of law. E.g., id.
There is no question that state law on issue preclusion can be applied in this very context, so as to
bar relitigating, in false-arrest litigation under section
1983, a prior probable-cause finding. See, e.g., Haupt
v. Dillard, 17 F.3d 285, 288-90 (9th Cir. 1994). Picatti
concedes as much, but he disputes that this is an appropriate circumstance for applying such a bar. (Mem.
Opp’n Defs.’ Mot. Summ. J. 11.) In that regard, he argues that precluding him from relitigating the issue of
probable cause would be inappropriate because (1) the
record in the underlying criminal case supposedly is
insufficient to review the magistrate’s probable-cause
finding, (2) his tactical objectives during the preliminary hearing supposedly prevented him from taking
full advantage of the opportunity to litigate the issue
of probable cause, and (3) Deputy Miner supposedly
testified falsely during that hearing. (Mem. Opp’n
Defs.’ Mot. Summ. J. 11-15.) The Court examines in
turn these three arguments, which seemingly are directed to only the first and third of the five criteria for
applying the doctrine of collateral estoppel.

App. 48
The first of Picatti’s three arguments fails because
the record in the underlying criminal case makes clear
that the magistrate understood perfectly well the elements of the felony charge at issue and determined
that the evidence presented during the preliminary
hearing supported a finding of probable cause to believe Picatti was guilty of that charge. Picatti’s counsel
argued during the summary-judgment hearing that an
audio recording of the magistrate’s findings at the conclusion of the preliminary hearing, which had not yet
been included in the record in this action, revealed deficiencies in the magistrate’s analysis, particularly
with respect to the intent element of the felony charge.
The Court’s immediate response to that argument was
to direct Picatti’s counsel to submit a CD containing
the recording, or a transcript of the recording, for the
Court’s consideration. Picatti’s counsel complied. The
Court takes judicial notice of the recording, which is a
copy of an official court record. Having listened to the
recording in chambers, the Court concludes that it provides no support whatsoever for counsel’s assertion
that the magistrate’s analysis was deficient. The recording plainly demonstrates the magistrate’s awareness of the intent element. His probable-cause finding
need not have been articulated on an element-by-element basis to encompass the intent element.
Picatti’s second argument also is belied by the
record in the underlying criminal case, which makes
clear that Picatti took full advantage of his opportunity to litigate the issue of probable cause. The Court
is aware of statements that arguably are somewhat to

App. 49
the contrary in the affidavit of Mark Manweiler, Picatti’s defense attorney in the underlying criminal
case. Manweiler said he didn’t treat the preliminary
hearing “as an opportunity to fully litigate probable
cause,” but instead as an opportunity to depose prosecution witnesses and to “alert[ ] the Prosecutor’s Office
to defects in the case.” (Manweiler Aff. ¶ 9.) But the
supposed distinction between contesting probable
cause, on one hand, and examining witnesses in a way
that alerts the prosecutor to weaknesses in his case,
on the other hand, is an elusive one. Regardless, the
transcript of the preliminary hearing shows that Manweiler vigorously contested probable cause, spending
significantly more time examining the prosecutor’s
only witness than did the prosecutor herself, and even
calling Picatti as a witness. Manweiler then asked the
magistrate “to not bind over in this case” because, in
his view, of a lack of substantial evidence to support
the charge. (White Aff. filed July 17, 2017, Ex. D at
74:23-76:7.) Thus, Picatti’s argument that the issue of
probable cause was not fully and fairly litigated is
flatly contradicted by the record in the underlying
criminal case.
Picatti’s third argument is that he should be permitted to relitigate the issue of probable cause because
Deputy Miner lied during the preliminary hearing. The
Court cannot, however, determine whether Deputy
Miner actually lied without allowing Picatti to relitigate the issue of probable cause. Picatti hasn’t shown
that Idaho law on issue preclusion allows a party to
relitigate an issue whenever that party asserts that his

App. 50
defeat in the prior litigation was the product of the
other party’s lies. Picatti had the opportunity during
the preliminary hearing to try to show that Deputy
Miner’s version of events was untruthful. He in fact
tried in various ways to convince the magistrate of that
(White Aff. filed July 17, 2017, Ex. D at 74:23-76:7), but
the magistrate didn’t see it that way. As a result, the
magistrate found probable cause. Simply saying Deputy Miner lied doesn’t entitle Picatti to a second bite at
the apple.
The five criteria for applying the doctrine of collateral estoppel are satisfied here. Consequently, Picatti
may not relitigate the issue of whether the Deputies
had probable cause to arrest him on the felony charge.
Because the Deputies had probable cause to make that
arrest, Picatti’s third claim fails in its entirety and his
first claim fails to the extent it is based on his having
been arrested on the felony charge. Moreover, that
there was probable cause to arrest Picatti on the felony
charge negates any need to litigate whether there was
also probable cause to arrest him on the misdemeanor
resisting-and-obstructing charge. There was only one
arrest, albeit on two charges. Because Picatti was lawfully arrested on the felony charge, liability for false
arrest can’t arise from his conjoint arrest on the misdemeanor resisting-and-obstructing charge, even in
the absence of probable cause to arrest on that charge.
See Mays v. Stobie, 2011 WL 2160364, at * 8 (D. Idaho
June 1, 2011) (“A false arrest claim under § 1983 will
fail if there was probable cause to arrest for at least
one of the offenses involved.”) (citing Johnson v. Knorr,

App. 51
477 F.3d 75, 82 (3d Cir. 2007)). Thus, Picatti’s first
claim also fails to the extent it is based on his having
been arrested on the misdemeanor charge.
For these reasons, the Deputies are granted summary judgment against Picatti’s first and third claims.
That leaves his second claim to be considered.
B.

Excessive-force claim

Picatti’s second claim is that the Deputies used
excessive force against him twice, first when they removed him from his vehicle, and again when they
tased him. Excessive-force claims necessitate an inquiry into whether law enforcement’s actions were
objectively reasonable under the circumstances. E.g.,
Graham v. Connor, 490 U.S. 386, 397 (1989). The reasonableness of an officer’s use of force is “judged from
the perspective of a reasonable officer on the scene,
rather than with the 20/20 vision of hindsight.” Id. at
396. This inquiry takes in account the totality of the
circumstances, though certain factors are particularly
relevant, “including the severity of the crime at issue,
whether the suspect poses an immediate threat to the
safety of the officers or others, and whether he is actively resisting arrest or attempting to evade arrest by
flight.” Id.
On summary judgment, the Deputies argue that
they didn’t use excessive force and that, even if they
did, they have qualified immunity from section 1983
liability because Picatti had no clearly established
right to be free from the level of force they used. Picatti

App. 52
says the level of force they used was excessive under
clearly established law, including Mattos v. Agarano,
661 F.3d 433 (9th Cir. 2011), which addresses excessive-force claims based on taser use.
The qualified-immunity doctrine “ ‘shields federal
and state officials from money damages’ ” under section
1983 unless the plaintiff proves “ ‘(1) that the official
violated a statutory or constitutional right, and (2) that
the right was clearly established at the time of the
challenged conduct.’ ” James v. City of Boise, 160 Idaho
466, 473, 376 P.3d 33, 40 (2016) (internal quotation
marks omitted) (quoting Ashcroft v. al–Kidd, 563 U.S.
731, 735 (2011)). The Court has discretion as to which
prong to address first. Id. “Addressing the second prong
first is consistent with the general rule of avoiding constitutional questions when the case can be decided on
other grounds.” Id. The Court chooses that approach
here.
In addressing the second prong, the Court must
take care not to define the statutory or constitutional
right at stake too generally, as doing so would vitiate
the qualified-immunity doctrine. Id. Giving that doctrine its intended vitality requires framing the right at
issue in light of the factual specifics of the case before
determining whether that right is clearly established.
Id. at 474, 376 P.3d at 41. So, the question isn’t whether
Picatti had a constitutional right to be free from use of
excessive force. That question is much too broad. It
must be narrowed to reflect the factual specifics of the
case. Taking into account the factual specifics, the
Court frames the questions at issue as follows:

App. 53
(1) Did Picatti have a clearly established right to
be free from forcible removal from his vehicle
after he had given Deputy Miner probable
cause to believe he had committed an aggravated battery upon Deputy Miner, and after
he had failed to voluntarily exit his vehicle as
lawfully ordered by Deputy Miner?
(2) Did Picatti have a clearly established right
to be free from Deputy Miner’s deployment
of a taser when—after he had given Deputy
Miner probable cause to believe he had committed an aggravated battery upon Deputy
Miner, and after he had failed to voluntarily
exit his vehicle as lawfully ordered by Deputy
Miner—he engaged in a physical struggle
with Deputy Miner and other officers upon being forcibly removed from his vehicle?
The answers to these questions, which the Court will
address in turn, plainly are “no.”
The Court’s analysis of the first question begins
with some additional explanation for why the Court
has framed the question that way. The additional explanation is this: the existence of probable cause to
believe Picatti had committed aggravated battery on
Deputy Miner can no more be relitigated in the excessive-force context than it can be relitigated in the falsearrest context. Picatti is collaterally estopped from
challenging the existence of probable cause. Consequently, at the time he was forcibly removed from his
vehicle, Deputy Miner had probable cause to arrest
him on that felony charge. For that reason, Deputy
Miner plainly had authority to order Picatti to exit his

App. 54
vehicle. Indeed, even without probable cause for arrest,
Deputy Miner had authority to order Picatti to exit his
vehicle, as an officer has that authority in connection
with any lawful traffic stop. E.g., Pennsylvania v.
Mimms, 434 U.S. 106, 111 (1977).
Picatti doesn’t deny that Deputy Miner ordered
him to exit his vehicle. He simply says he couldn’t understand what Deputy Miner was telling him to do. His
testimony in that regard, while accepted as true on
summary judgment, doesn’t create a genuine factual
dispute about whether Deputy Miner ordered him to
exit his vehicle. The evidence establishes as a matter
of law that Deputy Miner gave that order. Further, the
evidence establishes as a matter of law that Picatti
didn’t exit his vehicle as ordered. Thus, from Deputy
Miner’s perspective—the one that is relevant here under Graham—the situation confronting him was that
a man who had just committed an aggravated battery
against him was now unresponsive to a lawful order to
exit his vehicle. In that situation, Picatti had no clearly
established right to be free from forcible removal from
his vehicle.
The Court now turns to the second question, involving taser use. When Deputy Miner tased Picatti,
Deputy Miner had probable cause to arrest him for aggravated assault, he hadn’t followed Deputy Miner’s
lawful order to exit his vehicle, and upon his forcible
removal from his vehicle he had engaged in a physical
struggle with Deputy Miner and other officers, which
was put to an end by the tasing. Picatti’s struggle with

App. 55
armed officers was inherently dangerous,2 especially in
light of the pedestrians in the area. Although there
might have been other ways of ending the struggle
short of tasing Picatti, neither Mattos nor any other
case cited by Picatti establishes that he had a clearly
established right to be free from deployment of Deputy
Miner’s taser under the circumstances. By contrast,
Hinton v. City of Elwood, 997 F.2d 774, 782 (10th Cir.
1993), which involves the deployment of a taser in at
least passingly similar circumstances, supports the opposite conclusion.
For these reasons, summary judgment is entered
against Picatti’s excessive-force claim.
Accordingly,
IT IS ORDERED that the Deputies’ motion for judicial notice is denied, but their motion for summary
judgment is granted.

2

Indeed, according to the Deputies, the tasing by Deputy
Miner resulted directly from Deputy Laurence’s exclamation
about Picatti reaching for Deputy Laurence’s gun. (White Aff.
filed July 17, 2017, Ex. A at 73:1-21, Ex. B at 20:23-22:2.) That
said, Picatti denies touching the gun and says he never heard the
officers tell him to get his hands off the gun. (White Aff. filed July
17, 2017, Ex. C at 115:21-25.) The Court leaves this factual dispute to the side in deciding the Deputies’ motion for summary
judgment, noting again, though, that the gun’s presence makes
the physical struggle dangerous.

App. 56
Dated this 5th day of September, 2017.
/s/ Jason D. Scott Signed:
9/5/2017 11:26 AM
Jason D. Scott
DISTRICT JUDGE

App. 57
IN THE SUPREME COURT OF THE
STATE OF IDAHO
STEVEN L. PICATTI,
Plaintiff-Appellant,
v.

Order Denying
Petitions for
Rehearing
Docket No. 45499-2017

AARON MINER and
DENNIS LAURENCE,

Ada County
District Court
Defendants-Respondents, CV-PI-2016-10624

and
MARK WILLIAMSON,
RANDALL GOODSPEED,
and JOHN DOES 1-5,
Defendants.
The Appellant having filed a Petition for Rehearing on
June 27, 2019, and supporting brief on July 08, 2019,
of the Court’s Published Opinion released June 07,
2019; and the Respondents having filed a Petition for
Rehearing on June 28, 2019, and supporting brief on
July 12, 2019, of the Court’s Published Opinion released June 07, 2019; therefore, after due consideration,

App. 58
IT IS HEREBY ORDERED that Appellant’s and Respondents’ Petitions for Rehearing be, and hereby are,
denied as a Substitute Opinion has been issued.
Dated
September 10, 2019.

By Order of the
Supreme Court
/s/ Melanie Gagnepain
for Karel A. Lehrman
Clerk of the Courts

App. 59
IN THE SUPREME COURT
OF THE STATE OF IDAHO
STEVEN L. PICATTI
Plaintiff/Appellant,
vs.
AARON MINER, DENNIS
LAURENCE, MARK
WILLIAMSON, RANDALL
GOODSPEED, JOHN
DOES 1-5,
Defendants/Respondents.
and
MARK WILLIAMSON,
RANDALL GOODSPEED,
AND JOHN DOES 1-5
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Docket No.
45499-2017

---------------------------------------------------------------------------------------------------------------------------------------------------------------------

RESPONDENTS’ BRIEF IN SUPPORT
OF PETITION FOR REHEARING
---------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from the District Court, Fourth Judicial
District, County of Ada, State of Idaho
---------------------------------------------------------------------------------------------------------------------------------------------------------------------

HONORABLE JASON D. SCOTT,
PRESIDING DISTRICT JUDGE
---------------------------------------------------------------------------------------------------------------------------------------------------------------------

App. 60
Jason R.N. Monteleone,
ISB No. 5441
Bruce S. Bistline,
ISB No. 1988
Johnson & Monteleone, L.L.P.
350 N. Ninth Street,
Suite 500
Boise, Idaho 83702
Telephone: (208) 331-2100
Facsimile: (208) 947-2424
Email: Jason@treasure
valleylawyers.com
Bruce@treasure
valleylawyers.com

JAN M. BENNETTS
Ada County Prosecuting
Attorney
Erica J. White,
ISB No. 7475
Deputy Prosecuting
Attorneys
Heather M. McCarthy,
ISB No. 6404
Chief Civil Deputy
Civil Division
200 West Front Street,
Rm. 3191
Boise, Idaho 83702
Telephone: (208) 287-7700
Facsimile: (208) 287-7719
civilpafiles@adaweb.net

[i] TABLE OF CONTENTS
TABLE OF CONTENTS ......................................

i

TABLE OF CASES AND AUTHORITIES CITED .....

ii

I.

STATEMENT OF THE CASE ...................

1

II.

ARGUMENT ..............................................

1

A. THIS COURT ERRED IN CONCLUDING THAT IT COULD NOT DETERMINE AS A MATTER OF LAW THAT
THE DEPUTIES ARE ENTITLED TO
QUALIFIED IMMUNITY BECAUSE
OF DISPUTED FACTS .......................

1

App. 61

III.

1. It is an indisputable fact that Deputy Miner was warranted in his belief that Picatti committed felony
aggravated battery upon a law enforcement officer .............................

3

2. The Plaintiff failed to show that
clearly established law prohibited
the force used in this case ..............

5

CONCLUSION .......................................... 14

[ii] TABLE OF CASES AND AUTHORITIES CITED
Cases
Alston v. Read, 663 F.3d 1094, 1098 (9th Cir.
2011) ..........................................................................6
Anderson v. City of Pocatello, 112 Idaho 176, 179,
731 P.2d 171, 174 (1986) ....................................... 3, 4
Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011) ...............6
Blankenhorn v. City of Orange, 485 F.3d 463,
478-479 (9th Cir. 2007) ......................................... 8, 9
Brooks v. City of Seattle, 599 F.3d 1018 (9th Cir.
2010) .................................................................. 11, 13
Camarillo v. McCarthy, 998 F.2d 638, 640 (9th
Cir. 1993) ...................................................................2
City & County of San Francisco, California v.
Sheehan, 135 S. Ct. 1765, 1775-1776 (2015) ............7
City of Escondido, Cal. v. Emmons, 139 S. Ct.
500, 503-504 (2019) ............................................... 2, 7
Emmons v. City of Escondido, 921 F.3d 1172 (9th
Cir. 2019) ........................................... 6, 7, 8, 9, 10, 13

App. 62
Graham v. Conner, 490 U.S. 386, 396 (1989) ...............5
Harlow v. Fitzgerald, 457 U.S. 800, 818, 102
S. Ct. 2727 (1982) ......................................................2
James v. City of Boise, 160 Idaho 466, 471-478,
376 P.3d 33, 38-45 (2016) .................................. 11, 12
Malley v. Briggs, 475 U.S. 335, 341 (1986) ...................6
Mattos v. Agarano, 590 F.3d 1082 (9th Cir. 2010) .......11
Mattos v. Agarano, 661 F.3d 433, 437-452 (9th
Cir. 2011) ..................................................... 11, 12, 13
Meredith v. Erath, 342 F.3d 1057, 1059 (9th Cir.
2003) ...................................................................... 8, 9
Miller v. Idaho State Patrol, 150 Idaho 856, 865,
252 P.3d 1274, 1283 (2011) .......................................6
Morales v. Fry, 873 F.3d 817, 822 (9th Cir. 2017) ........3
Mueller v. Auker, 576 F.3d 979, 1006 (9th Cir.
2009) ..........................................................................2
Mullenix v. Luna, 136 S.Ct. 305, 308 (2015) ................6
[iii] Palmer v. Sanderson, 9 F.3d 1433, 1436 (9th
Cir. 1993) .................................................................10
Reichle v. Howards, 566 U.S. 658 (2012) ......................6
Romero v. Kitsap County, 931 F.2d 624, 628 (9th
Cir. 1991) ...................................................................2
Santos v. Gates, 287 F.3d 846, 853-854 (9th Cir.
2002) ...................................................................... 8, 9
Saucier v. Katz, 533 U.S. 194, 202, 121 S. Ct.
2151, 2156 (2001) ......................................................2
S.B. v. County of San Diego, 864 F.3d 1010, 1015
(9th Cir. 2017)........................................................ 6, 7

App. 63
State v. Gusman, 125 Idaho 805, 808-09, 874
P.2d 1112, 1115-16 (1994) ..................................... 3, 4
Torres v. City of Los Angeles, 548 F.3d 1197, 1211
(9th Cir. 2008)...................................................... 2, 12
White v. Pauly, 137 S. Ct. 548, 551-552 (2017).............6
[1] I.

STATEMENT OF THE CASE

On June 7, 2019, this Court issued its decision in
Steven L. Picatti v. Aaron Miner and Dennis Laurance
(hereinafter “decision”). In its decision, this Court held
that it could not determine whether the Defendants
were entitled to qualified immunity without the trier
of fact first resolving the disputed facts. Thus, the case
was remanded to the district court for a bifurcated proceeding wherein the jury will determine the historical
facts—establishing the who-what-where-when-why
details of the arrest—while the court will ultimately
determine whether the deputies violated Picatti’s
clearly established right.
On June 28, 2019, the deputies filed a Petition for
Rehearing on the issue of whether they are entitled to
qualified immunity on Picatti’s excessive force claim.
For the reasons provided below, the deputies assert
that factual issues do not need to be resolved by the
trier of fact before this Court can grant qualified immunity to them on Picatti’s excessive force claim because Picatti failed to come forward with case law that
clearly established that the deputies’ conduct was unlawful under the circumstances of this case.

App. 64
The circumstances of this case include the fact
that the magistrate court found probable cause for Picatti’s arrest. This establishes as a fact that Deputy
Miner was warranted in his belief that Picatti committed felony aggravated battery on a law enforcement officer. This is an indisputable fact that must be taken
into consideration when viewing the facts of this case.
II.

ARGUMENT

A. This Court Erred in Concluding That it
Could Not Determine as a Matter of Law
That the Deputies are Entitled to Qualified
Immunity Because of Disputed Facts.
[2] On a motion for summary judgment, a court
typically evaluates whether there are material issues
of fact in dispute. Romero v. Kitsap County, 931 F.2d
624, 628 (9th Cir. 1991). However, when a court is
asked to enter summary judgment based on qualified
immunity, it is required to view the facts in the light
most favorable to the non-moving party and decide
whether the defendants are entitled to qualified immunity based on those facts. Id.; see also Mueller v.
Auker, 576 F.3d 979, 1006 (9th Cir. 2009) (Wallace, J.
dissenting). If it is determined that no clearly established right was violated based upon the facts taken in
the light most favorable to the non-moving party, the
factual dispute becomes immaterial. Camarillo v.
McCarthy, 998 F.2d 638, 640 (9th Cir. 1993). Additionally, the court is required to determine what objectively
reasonable inferences may be drawn from such facts as
that determination is a matter of logic and law. Torres

App. 65
v. City of Los Angeles, 548 F.3d 1197, 1211 (9th Cir.
2008).
Likewise, on appeal, a court must properly analyze
whether clearly established law prohibited the defendant’s actions. City of Escondido, Cal. v. Emmons, 139
S. Ct. 500, 503-504 (2019). It cannot simply deny qualified immunity and remit the case for a trial. Id. To
deny summary judgment any time a material issue of
fact remains on the excessive force claim—could undermine the goal of qualified immunity to “avoid excessive disruption of government and permit the
resolution of many insubstantial claims on summary
judgment.” Saucier v. Katz 533 U.S. 194, 202, 121 S. Ct.
2151, 2156 (2001) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818, 102 S. Ct. 2727 (1982)).
Thus, the only time the jury needs to decide issues
of fact prior to the court determining whether the defendants are entitled to qualified immunity is if the defendants would be entitled to [3] qualified immunity
based on their version of the facts but not based on the
plaintiff ’s version of the facts. That situation is not
present here because qualified immunity is warranted
based on Picatti’s version of the facts coupled with the
indisputable fact that Deputy Miner had probable
cause to arrest Picatti for felony aggravated battery on
a law enforcement officer.
Before remanding this case to the district court
with instructions to carry out the bifurcated approach
utilized in Morales v. Fry, 873 F.3d 817, 822 (9th Cir.
2017), this Court must analyze whether Picatti met his

App. 66
burden to come forward with case law that clearly established that the deputies’ conduct was unlawful under the circumstances of this case. When this Court
undertakes that analysis, it will find that Picatti failed
to meet his burden as he did not cite to any cases that
clearly defined the right with sufficient specificity and
the deputies are entitled to qualified immunity.
1. It is an indisputable fact that Deputy Miner
was warranted in his belief that Picatti committed felony aggravated battery upon a law
enforcement officer.
“Collateral estoppel bars the relitigation of an issue determined in a criminal proceeding in which the
party sought to be estopped had a full and fair opportunity to litigate that issue.” Anderson v. City of Pocatello, 112 Idaho 176, 179, 731 P.2d 171, 174 (1986)
(emphasis added). The courts should focus on what ultimate issues the prior criminal proceeding established, and whether the proceeding was of such
significance to incentivize the parties to fully and fairly
litigate the issue. See Anderson, 112 Idaho at 184-85,
731 P.2d at 179-80; State v. Gusman, 125 Idaho 805,
808-09, 874 P.2d 1112, 1115-16 (1994).
[4] In its decision, this Court explained that while
Anderson specifically addressed whether collateral estoppel barred a section 1983 claim following a criminal
conviction, its principle applies to collateral estoppel
questions in general because issue preclusion “works
to prevent the relitigation of issues of ultimate fact.”

App. 67
Gusman, 125 Idaho at 808, 874 P.2d at 1115. Therefore,
in Anderson, this Court held that Anderson was estopped from denying he had pointed the gun at the officers because that fact was established by the earlier
conviction. (emphasis added).
In the present case, the deputies are not arguing
that Picatti’s claim for excessive force is barred by the
doctrine of collateral estoppel or, if successful, it would
imply the invalidity of his conviction. Rather, they are
simply asking the Court to apply the principle from
Anderson and argue that pursuant to that principle,
Picatti cannot dispute what was established in the
criminal proceeding.
The criminal proceeding established that there
was probable cause to arrest Picatti for aggravated
battery on a law enforcement officer. Probable cause
exists when the facts and circumstances are sufficient
to warrant a reasonable person in believing that the
suspect had committed a crime. Thus, the criminal proceedings established that the facts and circumstances
were sufficient to warrant Deputy Miner in believing
that Picatti had committed the crime of felony aggravated battery on a law enforcement officer by intentionally striking Deputy Miner with his truck.
As explained by this Court in Anderson, Picatti’s
criminal proceeding established facts that he cannot
relitigate in the civil arena including the fact that it
was objectively reasonable for Deputy Miner to believe
that Picatti committed felony aggravated battery upon
a law [5] enforcement officer. Whether Picatti actually

App. 68
intentionally hit Deputy Miner with his truck is irrelevant to the present analysis of Picatti’s claim for excessive force because the criminal proceeding already
established that a reasonable person would have been
warranted in their belief that Picatti intentionally
struck Deputy Miner.
The law is clear and there is no dispute that excessive use of force claims are evaluated for objective reasonableness based upon the information the officers
had when the conduct occurred. Graham v. Conner, 490
U.S. 386, 396 (1989). Further, the reasonableness of a
particular use of force must be judged from the perspective of a reasonable officer on the scene. Id. It was
established at the criminal proceeding that an objectively reasonable officer on the scene would have been
warranted in his belief that the Picatti committed felony aggravated battery on a law enforcement officer.
This perspective and fact cannot be disputed and must
be taken as true in this Court’s analysis of qualified
immunity.
In its decision concluding that Picatti’s excessive
force claim was not barred by collateral estoppel, this
Court stated “Picatti is trying to litigate whether the
deputies acted reasonably in making the arrest, not
whether they had probable cause to seize him.” In litigating whether the deputies acted reasonably in making the arrest, the Court must undertake that
evaluation on the established fact that Deputy Miner
was warranted in his belief that Picatti had committed
felony aggravated battery on a law enforcement officer.
In doing so, the Court will find that there is no clearly

App. 69
established law that meets the U.S. Supreme Court’s
demand for specificity.
2. The Plaintiff failed to show that clearly established law prohibited the force used in this
case.
[6] A plaintiff “bears the burden of showing that
the right at issue was clearly established.” Emmons v.
City of Escondido, 921 F.3d 1172 (9th Cir. 2019) (citing
Alston v. Read, 663 F.3d 1094, 1098 (9th Cir. 2011));
Miller v. Idaho State Patrol, 150 Idaho 856, 865, 252
P.3d 1274, 1283 (2011). “To be clearly established, a
right must be sufficiently clear that every reasonable
official would have understood that what he was doing
violates that right.” Reichle v. Howards, 566 U.S. 658
(2012) (emphasis added). As the Supreme Court has
frequently stated, qualified immunity protects “all but
the plainly incompetent or those who knowingly violate the law.” Mullenix v. Luna, 136 S.Ct. 305, 308
(2015) (citing Malley v. Briggs, 475 U.S. 335, 341
(1986)). Immunity applies unless existing precedent
has placed the statutory or constitutional questions
“beyond debate.” Ashcroft v. al-Kidd, 563 U.S. 731, 741
(2011) (emphasis added).
In its recent decision in White v. Pauly, the U.S.
Supreme Court reversed the denial of qualified immunity in the context of a Fourth Amendment excessive force claim. White v. Pauly, 137 S. Ct. 548, 551-552
(2017). In doing so, the Court observed that “[i]n the
last five years, this Court has issued a number of

App. 70
opinions reversing federal courts in qualified immunity cases.” Id. at 551. The Court explained that it “has
found this necessary both because qualified immunity
is important to society as a whole, and because as an
immunity from suit, qualified immunity is effectively
lost if a case is erroneously permitted to go to trial.” Id.
In the wake of White v. Pauly, in S.B. v. County of
San Diego the Ninth Circuit stressed that liability cannot be imposed for an alleged constitutional violation
unless existing precedent has been identified that provides “clear notice” the conduct was unconstitutional
under the circumstances. S.B. v. County of San Diego,
864 F.3d 1010, 1015 (9th Cir. 2017). In S.B., the Ninth
Circuit [7] specifically “acknowledge[d] the Supreme
Court’s recent frustration with failures to heed its
holdings.” Id. It also acknowledged that “[t]he Supreme
Court has ‘repeatedly told courts-and the Ninth Circuit in particular-not to define clearly established law
at a high level of generality.’ ” Id. (citing City & County
of San Francisco, California v. Sheehan, 135 S. Ct.
1765, 1775-1776 (2015).
Most recently, the U.S. Supreme Court remanded
the Ninth Circuit’s decision in City of Escondido, Cal.
v. Emmons, 139 S. Ct. 500, 503-504 (2019). In that case,
the U.S. Supreme Court reiterated that:
Specificity is especially important in the
Fourth Amendment context, where the Court
has recognized that it is sometimes difficult
for an officer to determine how the relevant
legal doctrine, here excessive force, will apply
to the factual situation the officer confronts.

App. 71
Use of excessive force is an area of the law in
which the result depends very much on the
facts of each case, and thus police officers are
entitled to qualified immunity unless existing
precedent squarely governs the specific facts
at issue. . . .
It does not suffice for a court simply to state
that an officer may not use unreasonable and
excessive force, deny qualified immunity, and
then remit the case for trial on the question of
reasonableness. An officer cannot be said to
have violated a clearly established right unless the right’s contours were sufficiently definite that any reasonable official in the
defendant’s shoes would have understood that
he was violating it.
Identifying the clearly established right by saying
that the right to be free from excessive force was
clearly established was too high a level of generality.
Id. at 503. Therefore, on remand, the Ninth Circuit requested supplemental briefing on the following question: “Did clearly established law prohibit the officers
from stopping and taking down a man in these circumstances?” Emmons v. City of Escondido, 921 F.3d 1172,
1173-1175 (9th Cir. 2019).
The circumstances in Emmons were as follows: the
police responded to a 911 call reporting [8] a fight at
an apartment. Id. at 1173. Once on scene, the officers
were told by one of the residents, who was now at the
pool, that everything was fine and they were not
needed. Id. Nonetheless, the officers proceeded to the

App. 72
apartment. Id. Despite repeated requests, the officers
were not allowed in the apartment. Id.
According to the plaintiff, he exited the apartment
with his back to the exterior hallway and began to close
the door. Id. He could not see any officers by the door
and did not hear anyone telling him to keep the door
open. Id. He first knew that the defendant was there
when the defendant grabbed him and threw him to the
ground. Id. A witness described the interaction as one
in which “Mr. Emmons was pulled out of the door,” and
“tackled to the ground.” Id. The Court also noted that
although the plaintiff posed no apparent danger to the
defendant, the officers were investigating an incident
that occurred inside the apartment and the plaintiff
had not been ruled out as a suspect. Id.
The Ninth Circuit held that the defendant was entitled to qualified immunity as it was unable to find a
case so precisely on point to satisfy the Supreme
Court’s demand for specificity. Id. at 1175. Although
the plaintiff cited several cases he believed clearly established that the defendant used excessive force, this
Court found that those cases did not present sufficiently similar factual circumstances to have “placed
the . . . constitutional question beyond debate.” Id. at
1174. The cases cited by the plaintiff included inter
alia Blankenhorn v. City of Orange, 485 F.3d 463,
478479 (9th Cir. 2007), Santos v. Gates, 287 F.3d 846,
853-854 (9th Cir. 2002), and Meredith v. Erath, 342
F.3d 1057, 1059 (9th Cir. 2003).

App. 73
In Blankenhorn, the plaintiff was gang-tackled by
three officers for suspected trespassing at [9] a shopping mall. 485 F.3d at 478. The plaintiff had not been
given any warning that he was under arrest and the
officers knew that the plaintiff had been cooperative
with law enforcement in the past. Id. In Santos, the
plaintiff was taken down so forcefully he allegedly suffered a broken back. 287 F.3d at 853. In Meredith, the
plaintiff was not even a suspect in a crime. 342 F.3d at
1059. Rather, the plaintiff was present in an office
where IRS agents were conducting a search. Id. Although she made no attempt to leave, one of the agents
grabbed her by the arms, forcibly threw her to the
ground, twisted her arms, and handcuffed her. Id. Because those cases were not sufficient to meet the U.S.
Supreme Court’s demand for specificity, the defendant
was granted qualified immunity.
Turning to the present case, as in Emmons, Picatti
has failed to meet his burden to come forward with a
case sufficient to meet the U.S. Supreme Court’s demand for specificity. Like Emmons, this Court should
ask: Did clearly established law prohibit the deputies
from removing Picatti from his truck and taking him
to the ground in these circumstances?
The circumstances in the present case, taking the
facts in the light most favorable to Picatti are as follows:
i.

Deputy Miner was warranted in his belief
that Picatti committed felony aggravated battery on a law enforcement officer.

App. 74
ii.

Picatti knew that Deputy Miner was trying to
communicate to him but could not hear what
he was saying.

iii. Picatti did not release his own seatbelt and
Deputy Miner reached in and released it.
iv. Deputy Miner removed Picatti from the truck
and took him to the ground with the assistance of Deputy Laurance.
[10] v. Picatti attempted to stand up and used his
hands to push his face off the ground.
Therefore, in order to meet his burden, Picatti
would have had to identify a case where the defendant
officer was facing a situation in which:
i.

He had a warranted belief that the plaintiff
had committed a serious crime similar to felony aggravated battery on a law enforcement
officer,

ii.

The plaintiff did not comply with officer commands, whether it was because he could not
hear them, could not comply or refused to
comply;

iii. The officer took the plaintiff to the ground and
struggled with him on the ground to handcuff
him, whether the struggle was because the
plaintiff was ‘resisting’ or something innocent
such as simply trying to stand up or push his
face off the ground with his hands.
Picatti has not come forward with a case sufficiently on point that could be considered as having
clearly established the right to be free from the force

App. 75
used in these circumstances. The only case cited by Picatti was Palmer v. Sanderson, 9 F.3d 1433, 1436 (9th
Cir. 1993). That case is not factually similar as the
plaintiff was not being arrested for a serious felony and
the force at issue was handcuffing the plaintiff too
tightly and then refusing to loosen the handcuffs. Id.
Also, it defined the right at issue as the right to be free
from excessive force. In the years since 1993, it has become overwhelmingly clear that the right cannot be defined at that high of a level of generality.
Instead, this Court should use the Emmons case
as its guide in conducting the required qualified immunity analysis. In Emmons, the plaintiff at least
identified cases that had potentially similar facts but
in the end each of them was distinguishable and did
not clearly establish the right at [11] issue under the
circumstances of that case. Picatti has failed to satisfy
his burden and the deputies are entitled to qualified
immunity with regard to the removal and take down
of Picatti as the law was not clearly established.
The same analysis applies to Picatti’s claim that
the taser use was excessive. Picatti came forward with
some cases in an attempt to meet his burden. However,
he still falls short as the cases cited by him do-not meet
the U. S. Supreme Court’s requirement for specificity.
Picatti relied on Mattos v. Agarano, 661 F.3d 433, 437452 (9th Cir. 2011) which is an en banc decision evaluating two prior decisions, Brooks v. City of Seattle, 599
F.3d 1018 (9th Cir. 2010) and Mattos v. Agarano, 590
F.3d 1082 (9th Cir. 2010). Those cases are distinguishable from the present case and did not put the issue of

App. 76
whether it was reasonable to tase Picatti under the circumstances of this case beyond debate.
The deputies will not reiterate their argument in
its entirety as to why the right was not clearly established at the time of this incident but rather will address it in only a limited sense and rely on their prior
briefing as the argument would be much the same.
Although this Court is required to essentially accept Picatti’s version of the facts as true in its summary judgment analysis, the analysis is slightly
different because qualified immunity is involved. Qualified immunity is unique and it requires that the Court
view Picatti’s version of the facts from the perspective
of a reasonable officer on the scene. This Court recognized and applied that duty in James v. City of Boise,
160 Idaho 466, 471-478, 376 P.3d 33, 38-45 (2016).
In James, the police responded to a call that someone broke into an office building. Id. at 471. The officers
used a K9 to search the building. Id at 472. The K9 ultimately found, bit and [12] restrained the plaintiff
who, it was later determined had a right to be in the
building. Id. In her § 1983 suit, plaintiff argued that
had the officers evaluated the totality of the circumstances, they would have determined why she was in
the building and that no force was necessary. Id. at 473.
The Court denied the validity of the argument,
stating the claim called for applying hindsight to the
analysis and not an analysis of the event as it was perceived in the moment. Id. at 475. This Court stated,
“[t]he Supreme Court has made it clear that the clearly

App. 77
established law at issue must take into account the factual circumstances facing the officers.” Id. The Court
in James, like the case at hand, acknowledged that
probable cause to arrest existed, so the analysis turned
to the use of force to make that arrest given the facts
associated with the existence of probable cause. Id. at
478.
When the Court applies that analysis, it becomes
clear that Picatti’s failure to get out of the truck upon
Deputy Miner’s command, whether due to fear, misunderstanding, or inability, could reasonably have been
viewed as refusing to comply with his commands. Further, Picatti trying to stand up and using his hands to
push himself off the ground, even though innocent,
could reasonably have been viewed by an officer on the
scene as ‘resisting.’ These are objectively reasonable inferences that may be drawn by the Court from Picatti’s
facts and determined as a matter of law. See Torres v.
City of Los Angelos, 548 F.3d 1197, 1211 (9th Cir. 2008).
It is this Court’s duty to evaluate the facts, taken
in the light most favorable to Picatti, but from the perspective of an objectively reasonable officer on the
scene. It must undertake the analysis to determine,
based on those facts, whether the law was clearly established. In doing so, it becomes evident that the law
was not clearly established as the Mattos en banc decision does not [13] “squarely govern the specific facts at
issue” and thus does not meet the U.S. Supreme Court’s
demand for specificity.

App. 78
In Mattos and Brooks, the plaintiffs were not similarly situated to Picatti, the crimes at issue were not
similar, and the facts leading up to the moment of tasing were not similar. In Brooks, the plaintiff was a
seven months pregnant woman that had been pulled
over for speeding. After refusing to sign the citation
and get out of the car, the officers discussed where to
tase her in light of her pregnancy and then tased her
three times in less than a minute. In Mattos, the plaintiff was the victim of a domestic dispute call. When the
police arrived the situation was relatively calm and all
she did was raise her arm to protect her breasts from
being smashed by one of the officers as he tried to walk
by her. In this case, the deputies reasonably believed
that Picatti had just committed a felony, the situation
was quickly escalating, and they were unable to control
Picatti even if it was simply because he was trying to
stand up.
This Court must follow the directive of the U.S. Supreme Court and conduct the qualified immunity analysis to determine whether the precedent cited by
Picatti “squarely governs the facts of this case” so that
every reasonable officer would have known that the
conduct was unlawful under the circumstances of this
case. It cannot be debatable. Thus, just like the Ninth
Circuit concluded in Emmons, this Court should conclude that the precedent relied upon by Picatti did not
meet the demand for specificity and did not put the
deputies on notice that their conduct was unlawful, entitling them to qualified immunity.

App. 79
If this Court determines that the cases cited by Picatti did squarely govern the facts of this case and did
meet the demand for specificity so that every reasonable officer would have known [14] that their conduct
was violating Picatti’s right, then the case can be remanded to the trial court. It is only after concluding
that qualified immunity to the deputies is not warranted based on Picatti’s facts viewed from the perspective of a reasonable officer on the scene, should the
Court remand to the district court for the bifurcated
trial process.
III.

CONCLUSION

Based on the foregoing, the deputies respectfully
request that this Court grant their Petition for Rehearing so that this Court can undertake the proper qualified immunity analysis and determine that Picatti
failed to prove that the law was clearly established and
that the deputies are entitled to qualified immunity.
DATED this 12th day of July, 2019.
JAN M. BENNETTS
Ada County Prosecuting Attorney
By: /s/ Erica White
Erica J. White, Deputy
Prosecuting Attorney
[Certificate Of Service Omitted]

